"Y

APPENDIX A
THE JUDGMENTS SOUGHT TO BE REVIEWED

l) U.S. District Court Eastern District of California- Sacramento
Deck v. WFB, N.A., et al

Case # 2:i7-cv-0234-MCE-KJN PS

Filed: 02/02/2017 Terminated: 06/12/2019
- TRO.....................................................................
- Evidentiary hearing -Summerby’s Declaration
■ Request for Recusal of Magistrate.......................

Granted
NO STANDING
Dkt #68

■ Reverse & Remand from 9th Cir. “gamesmanship” 41(b) -

Denied
CLOSED

The EDC’s Dismissal w/Prejudice Order entered 6/12/2019 Doc #82
**2017 Summerby’s Declaration - was NOT present, it was tendered
by WFB’s Attorney claiming he subpoenaed Summerby 3 or 4 times.

l) U.S. Court Of Appeals for the Ninth Circuit— San Francisco, CA
Case Deck v. WFB, N.A., et al

Case# 19-16370

■ Appeal from EDC Deck as a mortgager
■ Urgent Motion

to stop pending Foreclosure

CLEARLY HAS STANDING
Doc # 21

Dismissed

■ Motion on Rehearing...............................................

Doc # 23

Denied

- Emergent Motion...to stop pending Foreclosure

Doc # 23

Dismissed

■ Dismissal filed 2/23/21............................................

CASE CLOSED

Filing Deadline for: Writ of Certiorari in SCOTUS 7/23/2021

22

APPENDIX-B
OTHER ESSENTIAL MATERIAL
■ 07/11/2005 Divorce Decree
■ 02/15/2008 MSA Minute Order
- Evidentiary hearing Transcript (excerpts) - Magistrate
• Placer County Recorded Docs - Screen Print
- Assignment during Automatic Stay from WF Bank, N.A. to US Bank, N.A
- Assignment during Automatic Stat from US Bank, N.A. to MTGLQ
■ Assignment from MTGLQ back to US Bank, N.A. Chalet Series III Trust
- Assignment from US Bank, N.A. Chalet Series III Trust into US Bank, N.A.
Lodge Series III Trust
• Letters to US Bank N.A., SN Servicing, and Prestige Default Services
■ Foreclosure Sale from US Bank N.A., Lodge Series III Trust (Note Owned
By Preston Ridge Partners, LLC) to Redwood Partners, LLP
(they bought a ‘BAD LOAN” - they hold a bag of “Nothing”)
- Accounting of Payments and Financials
NO Compensation paid to Deck (SOLD for $539,,445.60k) Note $306K;
Placer County Objection to Default of Heather Summerby 7/12/21
Placer County, CA Recorded Documents — Parcel #

CERTIFICATES OF MAILING

23

APENDIX
APENDIX - A
SUPREME COURT OF THE UNITED STATE
Vernon Deck
Appellant
v.
Wells Fargo Bank, N.A., et al
Defendants
On Appeal from The
NINTH CIRCUIT COURT OF APPEALS

Petition for a Writ of Certiorari
Vernon Deck
1124 Hawthorne Loop
Roseville CA, 95678

APENDIX
APENDIX - A
SUPREME COURT OF THE UNITED STATE
Vernon Deck
Appellant
v.
Wells Fargo Bank, N.A., et al
Defendants
On Appeal from The
NINTH CIRCUIT COURT OF APPEALS

Petition for a Writ of Certiorari
Vernon Deck
1124 Hawthorne Loop
Roseville CA, 95678

APPENDIX A
THE JUDGMENTS SOUGHT TO BE REVIEWED
l) U.S. District Court Eastern District of California- Sacramento
Deck v. WFB, N.A., et al
Case # 2:i7-cv-0234-MCE-KJN PS
Filed: 02/02/2017 Terminated: 06/12/2019
TRO.............................................................................
.............
Granted
Evidentiary hearing -Summerby’s Declaration
NO STANDING
Request for Recusal of Magistrate.......................
Dkt #68
Denied
Reverse & Remand from 9th Cir. “gamesmanship” 41(b) CLOSED
The EDC’s Dismissal w/Prejudice Order entered 6/12/2019 Doc #82
**2017 Summerby’s Declaration - was NOT present, it was tendered
by WFB’s Attorney claiming he subpoenaed Summerby 3 or 4 times.

2)

U.S. Court Of Appeals for the Ninth Circuit— San Francisco, CA
Case Deck v. WFB, N.A., et al
Case# 19-16370
Appeal from EDC Deck as a mortgager
CLEARLY HAS
STANDING
Urgent Motion
to stop pending Foreclosure
Doc # 21
Dismissed
Motion on Rehearing.........................................................
Doc # 23 Denied
Emergent Motion...to stop pending Foreclosure
Doc # 23
Dismissed
Dismissal filed 2/23/21
CASE CLOSED
Filing Deadline for: Writ of Certiorari in SCOTUS 7/23/2021

(i or b)
Case: 19-16370, 01/28/2021, ID: 11984175, DktEntry: 20-1, Page 1 of 2

FILED

NOT FOR PUBLICATION

JAN 28 2021

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

No. 19-16370

VERNON DECK,
Plaintiff-Appellant,

D.C. No. 2:17-cv-00234-MCE-KJN

v.

MEMORANDUM*
WELLS FARGO BANK, N.A., National
Association, as Trustee for Option One
Mortgage Loan Trust 2003-1, Asset-Backed
Certificates, Series 2003-1; et al.,
Defendants-Appellees.
Appeal from the United States District Court
for the Eastern District of California
Morrison C. England, Jr., District Judge, Presiding
Submitted January 20, 2021 **
Before:

McKEOWN, CALLAHAN, and BRESS, Circuit Judges.

Vernon Deck appeals pro se from the district court’s judgment dismissing
his action alleging federal and state law claims arising out of foreclosure
proceedings. We have jurisdiction under 28 U.S.C. § 1291. We review for an

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
**

The panel unanimously concludes this case is suitable for decision
without -oral-argumentrrS'ee-F edrRrArpp rP r 34(a) (2):

(2 or t>)
Case: 19-16370, 01/28/2021, ID: 11984175, DktEntry: 20-1, Page 2 of 2

abuse of discretion a district court’s dismissal of an action for failure to comply
with the court’s orders, Ferdikv. Bonzelet, 963 F.2d 1258, 1260 (9th Cir. 1992),
and we affirm.
The district court did not abuse its discretion by dismissing Deck’s action
after providing Deck with several opportunities to file an amended complaint that
complied with the district court’s orders, as well as this court’s memorandum
disposition in Case No. 17-16680, and several warnings that failure to file such a
complaint would result in dismissal with prejudice. See Fed. R. Civ. P. 41(b)
(failure to comply with a court order may be grounds for dismissal with prejudice
as sanction); Ferdik, 963 F.2d at 1260-63 (setting forth factors the district court
must consider in dismissing a case for failure to comply with a court order).
We reject as without merit Deck’s contention that the district court judge or
the magistrate judge were biased against him.
Deck’s request for appointment of counsel, set forth in the opening brief, is
denied.
All other pending motions or requests are denied as moot.
AFFIRMED.

2

19-16370

(3 or b)
Case: 19-16370, 01/28/2021, ID: 11984175, DktEntry: 20-2, Page 1 of 4

United States Court of Appeals for the Ninth Circuit
Office of the Clerk
95 Seventh Street
San Francisco, CA 94103
Information Regarding Judgment and Post-Judgment Proceedings
Judgment
This Court has filed and entered the attached judgment in your case.
Fed. R. App. P. 36. Please note the filed date on the attached
decision because all of the dates described below run from that date,
not from the date you receive this notice.
Mandate (Fed. R. App. P. 41; 9th Cir. R. 41-1 & -2)
•
The mandate will issue 7 days after the expiration of the time for
filing a petition for rehearing or 7 days from the denial of a petition
for rehearing, unless the Court directs otherwise. To file a motion to
stay the mandate, file it electronically via the appellate ECF system
or, if you are a pro se litigant or an attorney with an exemption from
using appellate ECF, file one original motion on paper.
Petition for Panel Rehearing (Fed. R. App. P. 40; 9th Cir. R. 40-1)
Petition for Rehearing En Banc (Fed. R. App. P. 35; 9th Cir. R. 35-1 to -3)
(1)

A.

Purpose (Panel Rehearing):
A party should seek panel rehearing only if one or more of the following
grounds exist:
►
A material point of fact or law was overlooked in the decision;
►
A change in the law occurred after the case was submitted which
appears to have been overlooked by the panel; or
►
An apparent conflict with another decision of the Court was not
addressed in the opinion.
Do not file a petition for panel rehearing merely to reargue the case.

B.

Purpose (Rehearing En Banc)
A party should seek en banc rehearing only if one or more of the following
grounds exist:

Post Judgment Form - Rev. 12/2018

1

(4 ot b)

Case: 19-16370, 01/28/2021, ID: 11984175, DktEntry: 20-2, Page 2 of 4

►
►
►

Consideration by the full Court is necessary to secure or maintain
uniformity of the Court’s decisions; or
The proceeding involves a question of exceptional importance; or
The opinion directly conflicts with an existing opinion by another
court of appeals or the Supreme Court and substantially affects a
rule of national application in which there is an overriding need for
national uniformity.

(2)

Deadlines for Filing:
•
A petition for rehearing may be filed within 14 days after entry of
judgment. Fed. R. App. P. 40(a)(1).
•
If the United States or an agency or officer thereof is a party in a civil case,
the time for filing a petition for rehearing is 45 days after entry of judgment.
Fed. R. App. P. 40(a)(1).
•
If the mandate has issued, the petition for rehearing should be
accompanied by a motion to recall the mandate.
•
See Advisory Note to 9th Cir. R. 40-1 (petitions must be received on the
due date).
•
An order to publish a previously unpublished memorandum disposition
extends the time to file a petition for rehearing to 14 days after the date of
the order of publication or, in all civil cases in which the United States or an
agency or officer thereof is a party, 45 days after the date of the order of
publication. 9th Cir. R. 40-2.

(3)

Statement of Counsel
•
A petition should contain an introduction stating that, in counsel’s
judgment, one or more of the situations described in the “purpose” section
above exist. The points to be raised must be stated clearly.

(4)

Form & Number of Copies (9th Cir. R. 40-1; Fed. R. App. P. 32(c)(2))
•
The petition shall not exceed 15 pages unless it complies with the
alternative length limitations of 4,200 words or 390 lines of text.
•
The petition must be accompanied by a copy of the panel’s decision being
challenged.
•
An answer, when ordered by the Court, shall comply with the same length
limitations as the petition.
•
If a pro se litigant elects to file a form brief pursuant to Circuit Rule 28-1, a
petition for panel rehearing or for rehearing en banc need not comply with
Fed. R. App. P. 32.

Post Judgment Form - Rev. 12/2018

2

(s or b)
Case: 19-16370, 01/28/2021, ID: 11984175, DktEntry: 20-2, Page 3 of 4
The petition or answer must be accompanied by a Certificate of Compliance
found at Form 11, available on our website at www.ca9.uscourts.gov under
Forms.
You may file a petition electronically via the appellate ECF system. No paper copies are
required unless the Court orders otherwise. If you are a pro se litigant or an attorney
exempted from using the appellate ECF system, file one original petition on paper. No
additional paper copies are required unless the Court orders otherwise.
Bill of Costs (Fed. R. App. P. 39, 9th Cir. R. 39-1)
•
The Bill of Costs must be filed within 14 days after entry of judgment.
•
See Form 10 for additional information, available on our website at
www.ca9.uscourts.gov under Forms.
Attorneys Fees
Ninth Circuit Rule 39-1 describes the content and due dates for attorneys fees
applications.
All relevant forms are available on our website at www.ca9.uscourts.gov under Forms
or by telephoning (415) 355-7806.
Petition for a Writ of Certiorari
•
Please refer to the Rules of the United States Supreme Court at
www.supremecourt.gov
Counsel Listing in Published Opinions
•
Please check counsel listing on the attached decision.
•
If there are any errors in a published opinion, please send a letter in writing
within 10 days to:
►
Thomson Reuters; 610 Opperman Drive; PO Box 64526; Eagan, MN 55123
(Attn: Jean Green, Senior Publications Coordinator);
►
and electronically file a copy of the letter via the appellate ECF system by using
“File Correspondence to Court,” or if you are an attorney exempted from using
the appellate ECF system, mail the Court one copy of the letter.

Post Judgment Form - Rev. 12/2018

3

(b ot b)

Case: 19-16370, 01/28/2021, ID: 11984175, DktEntry: 20-2, Page 4 of 4

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
Form 10. Bill of Costs
Instructions for this form: http://www. ca9. uscourts. gov/forms/form 10instructions.pdf
V

9th Cir. Case Number(s)
Case Name
The Clerk is requested to award costs to {party name(s)):

I swear under penalty of perjury that the copies for which costs are requested were
actually and necessarily produced, and that the requested costs were actually
expended.
Date

Signature

(use “s/[typed name] ” to sign electronically-filed documents)
REQUESTED
(each column must be completed)

COST TAXABLE
DOCUMENTS / FEE PAID

No. of
Copies

TOTAL
COST

Pages per
Cost per Page
Copy

Excerpts of Record*

$

$

Principal Brief(s) (Opening Brief; Answering
Brief; 1st, 2nd, and/or 3rd Brief on Cross-Appeal;
Intervenor Brief

$

$

Reply Brief / Cross-Appeal Reply Brief

$

$

Supplemental Brief(s)

$

$

Petition for Review Docket Fee / Petition for Writ of Mandamus Docket Fee

$

TOTAL: $
*Example: Calculate 4 copies of3 volumes ofexcerpts ofrecord that total 500 pages fVol. 1 (10 pgs.) +
Vol. 2 (250 pgs.) + Vol. 3 (240 pgs.)] as:
-No-ofGopies:-4-;-Pages-per-Gopy:-500;-€ost-per-Page:-$-10-(or-actual"cosrrF-les's~tliWr$~r0)~;
TOTAL: 4 x 500 x $.10 = $200.
Feedback or questions about this form? Email us at fnrms(a}ca9. uscourts. gov

Form 10

Rev. 12/01/2018

Case: 19-16370, 02/23/2021, ID: 12013243, DktEntry: 23, Page 1 of 1

UNITED STATES COURT OF APPEALS

FILED

FOR THE NINTH CIRCUIT

FEB 23 2021
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

VERNON DECK,
Plaintiff-Appellant,
v.

WELLS FARGO BANK, N.A., National
Association, as Trustee for Option One
Mortgage Loan Trust 2003-1, Asset-Backed
Certificates, Series 2003-1; et al.,

No.

19-16370

D.C. No. 2:17-cv-00234-MCE-KJN
Eastern District of California,
Sacramento
ORDER

Defendants-Appellees.
Before:

McKEOWN, CALLAHAN, and BRESS, Circuit Judges.

Deck’s petition for panel rehearing (Docket Entry No. 21) and his
emergency motion for injunctive relief (Docket Entry No. 22) are denied.
No further filings will be entertained in this closed case.

Case: 19-16370, 02/11/2021, ID: 12001851, DktEntry: 22, Page 1 of 12

Case No. 19-16370
IN THE UNITED STATES COURT OF AAPPEALS
FOR THE NINTH CIRCUIT

VERNON DECK
Plaintiff and Appellant,
v.
WELLS FARGO BANK, N.A., et al.
Defendant- Appellee

On Appeal from the United States District Court
Eastern District of California
USDC Case No. 2:i7-cv-00234

Honorable Morrison C. English, Jr. Judge
Honorable K.J Newman, Magistrate

APPELLANT'S INFORMAL
EMERGENCY MOTION FOR INJUNCTIVE RELIEF
Per CIRCUIT RULE 27-3

Vernon Deck, in pro se
1124 Hawthorne Loop
Roseville, CA 95678
------{805.)-598-3206----

Case: 19-16370, 02/11/2021, ID: 12001851, DktEntry: 22, Page 2 of 12

OPENING STATEMENT
In this INFORMAL EMERGENCY MOTION FOR INJUNCTIVE RELIEF, Appellant Deck ultimately seeks
this court's immediate intervention while the appeal from the Eastern District Court, filed on
07/10/2019, waits to be REHEARD in the 9th Circuit.
The immediate issue of EMERGENCY is the shortened time for the re-scheduled Foreclosure Sale
against Appellant's primary residence, now set for March 1, 2021 in Roseville, Placer County, CA.

The EMERGENCY Ruling is requested on or before Feb. 26. 2021 to STOP the Invalid Sale of my
Home.
It is based on:
1) An invalid Assignment during a Bankruptcy Stay;
2) Violation of 11 § U.S.C. 727 Bankruptcy Discharge;
3) Prohibition of 11 U.S.C. §1701j-3(d)(7) Due-on-Sale preemptions, the 1962 Garn-St Garmain Act.

4) FRAP 8 - STAY Pending an Appeal.
The arguments supported by applicable rules of law are presented as follows:

1) Invalid Assignment during a Bankruptcy Stay
Found in 11 U.S.C. § 541; Federal Rules of Banking Procedure 10092(a), The filing of the Petition
triggers an automatic stay, prohibiting all entities from making collection efforts against the debtor,
or the property of the debtor's estate. The Automatic Stay was upheld by Bankruptcy Court Judge,
Ronald H. Sargis, against the Motion to Set Aside the Stay by Wells Fargo Bank. In re Deck (Case No.
16-24854 - E-7) Document 48 filed 03/09/17 in the US Bankruptcy Court, Eastern District of
California in Sacramento, reflects the court's outrage against Wells Fargo's disregard for the Court.
See page 2, second paragraph, as the court declares...
“It may well be that this is a directive from Movant to its attorneys that they will do it
‘The Wells Fargo Bank Way, hang any rules of the court."' The court further concluded
in its DISCUSSION: "From the evidence provided, the court cannot determine whether
Wells Fargo Bank, N.A. is entitled to relief from the automatic stay. The Manderville
Declaration appears to be ‘testimony by proxy”, with Ocwen Loan Servicing providing
a “dummy declarant" who has no personal knowledge."
Nonetheless, on October 13, 2017 Wells Fargo Bank, long after removing their Motion to Set Aside
the Automatic Stay at the behest of the court, unlawfully assigned the Deed of Trust to US Bank,
l

Case: 19-16370, 02/11/2021, ID: 12001851, DktEntry: 22, Page 3 of 12
N.A. while the Federal Protection of the Bankruptcy Stay was unmistakably in Force (through the
Final Decree filed on December 15, 2017). Furthermore, US Bank failed to return the lien to its
predecessor, Wells Fargo Bank, N.A., even after MTGLQ returned the lien to US Bank, N.A., in specific
violation of U.S.C. §1328(f), which was part of BAPCPA (the Bankruptcy Abuse Prevention and
Consumer Protection Act of 2005).
California (non judicial foreclosure) A.B. 3088. approved August 31,2020 A borrower who
was harmed by a material violation of the law may bring an action for injunctive relief,
restitution, and damages. The borrower may also sue to enjoin a foreclosure proceeding
contrary to the law. The availability of “any other remedy to redress the violation” appears
to include the setting aside of a completed foreclosure sale in appropriate cases.
Borrowers who prevail in an action to enforce the law may recover attorney’s fees. A
servicer must provide notices with specified content when it denies a request for
forbearance, (w/emphasis)
To the contrary, when Appellant asked Gwen Campbell at SN Servicing, in Eureka, California (on
behalf of US Bank, Trustee, and Preston Ridge Partners, LLC - Owner of the NOTE) in our October
30,2020,50-minute recorded phone call, if they would grant a Forbearance since the property was
Quit Claimed back to Deck in 2008 by Heather Summerby; and in 2015 and 2017 Summerby Swore
that she alone is liable (even after Deck's Chapter-7 Bankruptcy filed in 2016). To this Gwen
responded: "We don't do Forbearances." There has been nothing in writing to follow up her denial
of Appellant's direct request
2) Violation of 11 U.S.C 727 Bankruptcy Discharee
All parties are now fully aware Deck filed a Non-Asset Chapter 7 Bankruptcy under 11 U.S.C. § 727
in 2016. It was fully DISCHARGED, and case closed on 12/27/2017 (Case No. 16-24854 - E-7). A Lis
Pendence authorized in the Eastern District court prior to Appeal has NOT been removed.
Subsection 727(b) of this Code, reads:
“Except as provided in Section 523 of this title, a discharge under subsection (a) of this
section discharges the debtor from ail debts that arose before that date of the order for
relief under this chapter, and any liability on a claim that is determined under section 502
of this title as if such claim had arisen before the commencement of the case, whether
or not a proof of claim based on any such debt to liability is filed under section 501 of this
title, and whether or not a claim based on any such debt or liability is allowed under
section 502 of this title.
2

Case: 19-16370, 02/11/2021, ID: 12001851, DktEntry: 22, Page 4 of 12
In that Chapter-7 Discharge, on Official Form 318, are the instructions, under the following
headings, in relevant part with underlined comments following:
“Creditors cannot collect discharged debts - This order means that no one may make
any attempt to collect a discharged debt from the debtors personally. For example,
creditors cannot sue, garnish wages, assert a deficiency, or otherwise try to collect from
debtors personally on discharged debts. Creditors cannot contact the debtors by mail,
phone, or otherwise in any attempt to collect the debt personally. Creditors who violate
this order can be required to pay debtor’s damages and attorney’s fees.
However, a creditor with a lien may enforce a claim against the debtors’ property subject
to that Hen unless the Hen was avoided or eliminated.”
The lien was avoided. As of the 12/01/2017 Bankruptcy Final Decree there were no creditors
remaining. (Ocwen is on the Creditors List for: $274,805.32 and $10,000.00 -No Exemption Claim
Asserted or Allowed}
“Most debts are discharged - Most debts are covered by the discharge, but not all.
Generally, a discharge removes the debtors’ personal liability for debts owed before the
debtors’ bankruptcy case was filed.” Also, if this case began under a different chapter of
the Bankruptcy Code and was later converted to Chapter 7, debts owed before the
conversion are discharged."
As in the case listed above from Chapter 13 (filed on7/25/2016) and converted to Chapter 7 on
9/16/2016 (see Official Form 108 signed by Petitioner, who is also the Appellant in this matter now
pending before the court).
Further, citing In re Bonner Mall P'ship, 2 F.3d 899,912 (9th Cir. 1993), the court found that Discharge
was a necessary predicate for lien voidance, stating: "a claim against the debtor that is not an allowed
secured claim," and therefore its lien is void.".
The Supreme Court in Dewsnup v. Timm, 502 U.S. 410 (1992), reasoned that § 506(d) "gives the
provision the simple and sensible function of voiding a lien whenever a claim secured by the lien itself
had not been allowed", and it "ensures that the code's determination not to allow the underlying
claim against the debtor personally is given full effect by preventing its assertion against the debtor's
property." **See Notice of Trustee's Sale attached at the end.**

3) 12 U.S.C. § 1701i-3(d)f7) Preemption of due-on-sale prohibitions
Within this section. lender may not exercise its option pursuant to a due-on-sale clause based on
nine sub-categories. At number (7) it reads:
3

Case: 19-16370, 02/11/2021, ID: 12001851, DktEntry: 22, Page 5 of 12
"a transfer resulting from a decree of a dissolution of marriage, legal separation agreement, or from
an incidental property settlement agreemen t, by which the spouse of the borrower becomes an owner
of the property."

In DECK V. SUMMERBY in California family court (CASE NO.: SM 1127093), The Dissolution was final
in July 2005 but the MSA (Marital Settlement Agreement) not entered until February 15, 2008.
Thereafter, Summerby through Grant Deed relinquished all ownership in Deck's primary residence
since 1999, back to him in full (after a short 15-month marriage).
Taken from the Bankruptcy Instructions on Form 318 it reads:
"In a case involving community property: Special rules protect certain community property
owned by the debtor's spouse, even if that spouse did not file a bankruptcy case."
And continues...
"In addition, this does not stop creditors from collecting from anyone else who is also liable
on the debt, such as an insurance company or a person who cosigned or guaranteed a
loan." (w/emphasis)
From Summerby's Sworn Declarations filed in the 2015 and 2017 EDC Case No. 2:17-cv-00234- MCEKJN, from which case this appeal was made, Exhibit Documents 9 and 10 filed 02/16/2017, Sections
4 and 5, she explicitly testifies: 4. "/ was the only person liable on the Loan. I continue to be the only
person liable on the Loan." 5. "To date, I remain the sole obligor and borrower on the Loan and have
not assigned my interests, rights, and/or obligations in the Loan to anyone, including my ex-husband,
Vernon Ray Deck.” She signed the first Declaration December 3, 2015, and the later Declaration on
May 14, 2017, long after the Dissolution and MSA's were FINAL in 2008. The Quit Claim Deed of
Summerby's interests in the residence, was signed November 4, 2008, was filed in Placer County, CA
as: Doc 2012-0001965-00 and recorded on 11/02/2012. The Panel should also note that at no time
did she ever have any personal funds in the property or paid toward the Mortgage Loan she insists
is solely her Obligation, although she took thousands from it (see Appellant's Accounting submitted
at the EDC hearing, Exh. 16). How does that work? It strongly advocates that she only relinquished
her property rights to Deck's residence while demanding only she retained full obligation for the
Note, without any investment whatsoever. Which begs the question.... Why then does every
fiduciary REFUSE to pursue collection from Ms. Summerby, and DEMAND to strip Appellant of his
lawfully obtained. Sole and Separate Primary Residence? Is she somehow associated .with the.

4

Case: 19-16370, 02/11/2021, ID: 12001851, DktEntry: 22, Page 6 of 12
owner(s) of the Note?

Moreover, after Appellant's Chapter 7 Bankruptcy Discharge?

The

preemption of due-on-sale prohibitions are clearly evident., and must Stop the pending sale !
Appellant implores this court to Expunge the First Deed Lien against his primary residence at 1124
Hawthorne Loop, Roseville, CA 95678.

4) Stay Pending Appeal
In reference to FRAP 8: A Motion for Stay, the Initial Motion for a TRO was filed and Granted
in the District Court, preliminary to the pursuit at hand. A party must ordinarily move in the
district court for the following relief:
(C) "an order suspending, modifying, restoring, or granting an injunction while an appeal
is pending."
The Lis Pendence filed in Placer County, was signed by the EDC and Recorded 07/09/2019 DOC
2019-0047346-00, which alerts the public of this unfinished action in the court, still pending appeal.

CONCLUSION
In a 2007 Massachusetts Bankruptcy Case (No. 06-42476-JBR, re Sima Schwartz), the Honorable
Joel B. Rosenthal, denied a Motion for Relief of Stay by HomEq Servicing Corporation, stating "While
"mortgage" has been defined to include assignees of a mortgage, in other words the current
mortgagee, there is nothing

to suggest that one who expects to receive the mortgage by

assignment may undertake any foreclosure activity” Similarly, Wells Fargo Bank, N.A. illegally
Assigned the mortgage transfer, to US Bank, during Deck's pending Bankruptcy, with continued
pursuit by the unjustified "successors", with malicious intent to take his home. Appellant Prays this
court is wise to the ruthless harm these Lenders/Servicers levy upon Appellant, and strongly prays
for this court to prevent the ongoing abuse detailed herein.
APPELLANT Deck respectfully requests for this court to:
1)
2)
3)
4)

Specify that the pending March 1, 2021 Foreclosure Sale is to be CANCELLED.
Void the illegal Transfer by Assignment from Wells Fargo Bank, N.A. to US Bank, N.A.
Void the Lien against Appellant's residence at 1124 Hawthorne Loop, Roseville, CA 95678.
Award appropriate Sanctions, at the court's discretion, in an amount the court determines,
would be reasonably appropriate, and/or necessary, to deter further harm to Appellant. This
would allow Appellant to obtain counsel in pursuit of the remaining pending matters Appellant
has before this court.

February 11,2021
ernon Deck - Appellant, In pro per
5

Case: 19-16370, 02/11/2021, ID: 12001851, DktEntry: 22, Page 7 of 12

Prestige Default Services
1920 Old Tustin Ave.
Santa Ana, California 92705
949-427-2010
NOTICE TO BORROWER OF POSTPONEMENT OF TRUSTEE’S SALE
February 8,2021
Re:

T.S. Number:
Property Address:

20-4375

1124 HAWTHORNE LOOP
ROSEVILLE,CA 95678

You are hereby notified that the above-referenced Trustee’s Sale previously scheduled for
2/8/2021 at 9:30 AM has been postponed to 3/1/2021 at 9:30 AM at the place originally set
forth in the Notice of Trustee’s Sale.
YOU MAY NOT RECEIVE WRITTEN NOTICE OF POSTPONEMENT EACH TIME
THE TRUSTEE’S SALE IS POSTPONED. TO PROTECT YOUR INTEREST IN THE
PROPERTY, IT IS IMPORTANT THAT YOU MONITOR ALL POSTPONEMENTS OF
THE TRUSTEE’S SALE. You may monitor trustee’s sale postponements by attending the
scheduled trustee’s sale at the place in the notice of trustee’s sale and at the date and time in the
most recent public declaration of postponement. While a public declaration at the time set for
trustee’s sale is the official method for postponing a trustee’s sale, you can also obtain
information about further trustee’s sale postponements by calling 1-866-684-2727 or through the
following website: https://www.servicelinkasap.com/default.aspx and by accepting the terms and
conditions for that resource. UNLESS YOU TAKE ACTION TO PROTECT YOUR
PROPERTY, IT MAY BE SOLD AT A PUBLIC SALE WITHOUT FURTHER NOTICE.
NOTICE TO TENANT: You may have a right to purchase this property after the trustee
auction pursuant to Section 2924m of the California Civil Code. If you are an eligible tenant
buyer,” you can purchase the property if you match the last and highest bid placed at the trustee
auction. If you are an “eligible bidder,” you may be able to purchase the property if you exceed
the last and highest bid placed at the trustee auction. There are three steps to exercising this right
of purchase. First, 48 hours after the date of the trustee sale, you can call 1-866-684-2727, or visit
this internet website https://www.servicelinkasap.com/default.aspx, using the file number
assigned to this case 20-4375 to find the date on which the trustee’s sale was held, the amount of
the last and highest bid, and the address of the trustee. Second, you must send a written notice of
intent to place a bid so that the trustee receives it no more than 15 days after the trustee’s sale.
Third, you must submit a bid so that the trustee receives it no more than 45 days after the
trustee’s sale. If you think you may qualify as an “eligible tenant buyer” or “eligible bidder,” you
should consider contacting an attorney or appropriate real estate professional immediately for
advice regarding this potential right to purchase.
PRESTIGE DEFAULT SERVICES, as authorized agent of the beneficiary
Briana Young, Trustee Sale Officer

mE

Case: 19-16370, 02/11/2021, ID: 12001851, DktEntry: 22, Page 8 of 12

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
Form 16* Circuit Rule 27-3 Certificate for Emergency Motion
Instructions for this form: hltp://wmv.ca9.uscourts.eov/forms/form}’6instructions.pdf

9th Cir. Case Number(s)

19-16370

Case Name Deck v. Wells Fargo Bank N.A., et. all
I certify the following:
The relief I request in the emergency motion that accompanies this certificate is:
1) Specify that the pending March 1, 2021 Foreclosure Sale is to
2) Void the illegal Transfer by Assignment from Wells Fargo Bank, N.A. to US
Bank, N.A.
3) Void the Lien against Appellant ' s residence at 1124 Hawthorne Loop,
Roseville C.A Q567K________________________________________________________

Relief is needed no later than (date) :

February 26, 2021

The following will happen if relief is not granted within the requested time:
Appellant's primary residence will be sold at a re-cheduled Foreclosure Sale.

I could not have filed this motion earlier because:
The Foreclosure Sale for 2/08/2021 was rescheduled, without reason to
3/01/2021.

Feedback or Questions about this form? Email us at forms(ii>cu9.uscourts.eo\•

Form 16

1

Rev. W21/2019

Case: 19-16370, 02/11/2021, ID: 12001851, DktEntry: 22, Page 9 of 12

I requested this relief in the district court or other lower court: O Yes
If not, why not:

No

Now on Appeal ans Appellaant actively seeks the 9th Circuit pannel's
Rehearing, while a Foreclosure was just re-scheduled on my primary
residence.

I notified 9th Circuit court staff via voicemail or email about the filing of this
motion: ® Yes O No
If not, why not:

I have notified all counsel and any unrepresented party of the filing of this motion:
On (date): Feb. 11,2021
By (method): US MAIL
Position of other parties: Trustee/Mortgage Servicer's Attorney
Name and best contact information for each counsel/party notified:
Neil Cooper - Representing:
Wells Fargo, Ocwen, Power Default Services
Houser & Allyson, APC 9970 Research Drive, -Irvine , CA 92618
William A. Fogleman - Atty for:
U.S. Bank Trust National Assoc, as Trustee-Lodge Series III Trust
SN Servicing Corporation 13702 Coursey Blvd., Bid. 1, Batton Rouge, LA
70817
I declare under penalty of peijury that the foregoing is true.
Date

Signature

February 11, 2021

Feedback or guestions about thisform? Email us at fbrmsfd'ca 9. uscnurts.jjnv

Form 16

2

Rev. 11/21/2019

Case: 19-16370, 02/11/2021, ID: 12001851, DktEntry: 22, Page 10 of 12

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
Form 8. Certificate of Compliance for Briefs
Instructions for this form: hUp://www.ea9.uscoum.eov/forms/form08inslructions.pdf

9th Cir. Case Number(s)

19-16370

I am the attorney or self-represented party.
This brief contains

1,999

words, excluding the items exempted

by Fed. R. App. P. 32(f). The brief s type size and typeface comply with Fed. R.
App. P. 32(a)(5) and (6).
I certify that this brief (select only one):
G complies with the word limit of Cir. R. 32-1.
O is a cross-appeal brief and complies with the word limit of Cir. R. 28.1-1.
O

is an amicus brief and complies with the word limit of Fed. R. App. P.
29(a)(5), Cir. R. 29-2(c)(2), or Cir. R. 29-2(c)(3).

O is for a death penalty case and complies with the word limit of Cir. R. 32-4.
O

complies with the longer length limit permitted by Cir. R. 32-2(b) because
(select only one):
C it is a joint brief submitted by separately represented parties;
O a party or parties are filing a single brief in response to multiple briefs; or
O a party or parties are filing a single brief in response to a longer joint brief.

O complies with the length limit designated by court order dated
C is accompanied by a motion to file a longer brief pursuant to Cir. R. 32-2(a).

Signature

Date

February 11, 2021

■(use -^&/[typcd-name]JLto-sigrre!ectmnically-fi/ed ’documents)
Feedback or questions about thisform? Email us at formstihea9.uscmuls.pov

Form 8

Rev. 12/01/2018

Case: 19-16370, 02/11/2021, ID: 12001851, DktEntry: 22, Page 11 of 12

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
Form 25. Certificate of Service for Paper Filing

lal^M

iaM«^g«tea^^^aS»-yglinSi de;iv,.r!1:

9th Cir. Case Number(s)
19-16370
Case Name
Deck v. Wells Fargo Bank. N.A., et al
I certify that I served on the person(s) listed below, either by mail or hand delivery,
a copy of the Appellant’s Informal Emergency Motion For Injunctive Relief Per Circuit Rule
27-3 and any attachments, (title of document you ore filing, such as Opening Brief, Motion for_5
etc.)
4

Signature /^pjAJs0h^
Name
Neil Cooper - Representing:
Wells Fargo, Ocwen, Power
Default Services

Date

February 11,2021

Address
Houser & Allyson, APC
9970 Research Drive, Irvine , CA92618

i William A. Fogleman - Atty for: i SN Servicing Corporation
U.S. Bank Trust National Assoc, 13702 Coursey Blvd., Bid. 1, Battoh Rouge, LA
as Trustee-Lodge Series ill Trust' 70817

Date Served
02/11/2021
02/11/2021

Mail, this form to the court at:
Clerk, U.S. COurt of Appeals for.the Ninth,.CirGuiL_R.Q.J3ox-19-3939.23an-Pran&isco.-GA-941-19-3939Feedback of questions about this form ? Email us at fonns(d\ca9. uscouns.eox)

Form 25

Rev. 12/01/18

Case: 19-16370,02/11/2021, ID: 12001851, DktEntry: 22, Page 12 of 12

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
Form 27. Motion for

EMERGENCY MOTION FOR INJUNCTIVE RELIEF

Instructionsfor this form: http://www.ca9. uscourts.gov/forms/form27instructions.pdf

9th Cir. Case Number(s)
Case Name

19-16370

DECK v. WELLS FARGO BANK, N.A., et AL.

Lower Court or Agency Case Number 2:17-cv-00234-MCE-KJN PS
What is your name?

Vernon Deck

1 • What do you want the court to do?
STOP Foreclosure Sale
See attached Informal at Conclusion page 5,

2. Why should the court do this? Be specific. Include all relevant facts and law
that would persuade the court to grant your request. (Attach additional pages as
necessary. Your motion may not be longer than 20pages.)

Illegal Transfer during Bankruptcy Stay and other Rules of Law
See attached Informal at Opening page 1.

Your mailing address:
1124 Hawthorne Loop
City Roseville

State CA

Zip Code 95678

Prisoner Inmate or A Number (if applicable) N/A
Signature
Feedback or questions about thisform? Email us at /brms(qi.cn9.uscourts.f>nv

Form 27

New 12/01/2018

(i or y)
Case: 19-16370, 02/11/2021, ID: 12001198, DktEntry: 21-1, Page 1 of 7

Case No. 19-16370
IN THE UNITED STATES COURT OF AAPPEALS
FOR THE NINTH CIRCUIT

VERNON DECK
Plaintiff and Appellant,
v.

WELLS FARGO BANK, N.A., et al.
Defendant- Appellee

On Appeal from the United States District Court
Eastern District of California
USDC Case No. 2:i7-cv-00234

Honorable Morrison C. English, Jr. Judge
Honorable K. J Newman, Magistrate

APPELLANT'S INFORMAL
MOTION FOR PANEL REHEARING
Per FRAP RULE 40

Vernon Deck, in pro se
1124 Hawthorne Loop
Roseville, CA 95678
(805) 598-3206

fj

(z
Case: 19-16370, 02/11/2021, ID: 12001198, DktEntry: 21-1, Page 2 of 7

Informal Motion for Panel Rehearing
Appellant Respectfully submits this Informal Motion for Panel Rehearing per FRAP Rule 40, within
14 days of the Order of this court, filed on January 29, 2021. Court copy received February 3, 2021.
Appellant Pleads for the panel of the NINTH Circuit to rehear the appeal from the EDC as well as his
Informal URGENT Motion for Injunctive Relief to stop the unwarranted Foreclosure Sale of his
home. A new foreclosure Sale date is scheduled for March 1, 2021. May the court also note that
both the March 8, 2021 and the March 1, 2021 Foreclosure Sale dates were scheduled within the
30-day time period SN Servicing attorney stated Appellant had to respond to his correspondence,
received February 3, 2021.

1)

What material point of Fact or Law was overlooked in the Decision?

The material point of Fact is:

Appellant's Right to be heard, far outweighs an unfavorable

argument that the Appellant was uncooperative and thereby lost his constitutional right to justice.
The material point of Law is:

No merits of the case have been heard by the judiciary for any

substantial reason. Only the preliminary Evidentiary Hearing was held with a clearly unfounded
Determination by the EDC, which the 9th circuit clearly articulated in its Reverse and Remand Order:
"Mr. Deck dearly has standing." Although the NINTH Circuit determined that the EDC court and
officers did not have a bias against the Appellant, it did not clarify 4 of the 5 specific concerns of
Appellant's third appeal.
The only issue specifically addressed by the panel which Appellant sought in his appeal was:
number 4) Appointment of Counsel - DENIED, which had been determined previously on March 12,
2020 by Justices FRIEDLAND and MILLER. Appellant fully acknowledges the discussion of the Ferdik
Rules applied by the EDC. However, Appellant, with a paralegal's insistence, objected to the EDC
concerning his misunderstanding of the Ninth's R and R Order and legitimately challenged the EDC
following the payment of a Monetary Sanction, which unreasonably caused the finality of a
Dismissal with Prejudice, while the pending harm against his primary residence continues to be
wrongfully foreclosed upon.
Secondly, the panel specifically DENIED the Appellant's perceived bias of the EDC in his complaint.

1

ot

y)

(3
Case: 19-16370, 02/11/2021, ID: 12001198, DktEntry: 21-1, Page 3 of 7
Under section 6 (pg. 5) of Appellant's Dkt Entry 13, each of the remaining four concerns clearly
stated as issues Appellant brought before this panel, were vaguely noted without discussion, and
were NOT ADDRESSED, other than within the catch all phrase: "all other issues and motions are
MOOT", which significantly prejudices Appellant under the looming Foreclosure Sale pending
against his home. Appellant was realistically moving for the panel to clarify several significant
matters of legal concern....
1) Determine if the EDC Violated the Reverse and Remand Decision of the NINTH Circuit.
2) Determine if the Dismissal is defective.
3) Determine Appellant's right to be heard on the Original pleadings.
5) Request for leave of court to name the Does.
Each of these were met with vague silence. The panel did not address these significant questions
of law or reason regarding the NCCA's Reverse and Remand (#1 and #2 above); To be heard on the
merits (#3 above); or, answer the Request for Leave (#5 above). However, the panel did specifically
address Appellant's interpretation of a bias in the Eastern District Court's refusal to hear and
Reverse its clearly erroneous determination, namely that Appellant had NO STANDING, in stating it
had no merit in the panel's mind. This was not a material fact, it was based solely on a matter of
argumentative procedure the EDC termed "gamesmanship", rather than addressing the underlying
issue of clarification and implementation of the Reverse and Remand Order.

In fact, Appellant

sought clarification of his understanding of the application for the Reverse and Remand Order from
the 9th Circuit with his second Appeal, and its adherence by the EDC. Yet on 02/01/2021, NCCA
Judges SILVERMAN, GERBER, and GOULD determined it had no jurisdiction because that appeal did
not arise from a Final Decision at that time, and avoided the determination of its merits or lack
thereof.
This pro se Appellant's motive has, and remains, to simply present the true issues in a manner for
the courts to determine judiciously. Appellant is pleading to save his home from the unscrupulous
predators manipulating the rules of law, motivated by the profit they smell from flipping another
home and destroying another family.
Appellant asserts that Appellees intentionally refuse to pursue their Reasonable Remedy of Law...
specifically, collecting from the one signer of the Note (Heather Summerby), which Appellees have
themselves touted by presentation in the EDC to be the sole Signer/Obligor of the Note to
Appellant's primary residence (see: EDC Docs 8, and 9), without ever assigning any of her obligation

2

ot

y)

(4 or y)
Case: 19-16370, 02/11/2021, ID: 12001198, DktEntry: 21-1, Page 4 of 7

of the Note back to her ex-husband, by name, following her 2008 Quit Claim Deed, which
disavowed all of her interest in the physical property as part of the 2008 MSA, yet retained her
fiduciary duty.
THE INTENDED HARM IS: To intentionally strip Appellant of his Primary Residence and all Equity
from payments in the property of nearly $380,000 (and significant costs of nearly), which he
initially purchased as a single man as his sole and separate property in 1999, prior to dating his
second wife.

It began with the spiteful ex-wife of only 15 months (18 years ago), and is continued

today by the banks, servicers, and attorneys representing, them who refuse to properly pursue the
only remaining obligator of

the Note, after Quit-Claiming all her property interests back to

Appellant in 2008.
The wrongful collection of Appellant's discharged liability, by Appellees, demands noting The
Supreme Court in Dewsnup v. Timm, 502 U.S. 410 (1992), which reasoned that § 506(d) "gives the
provision the simple and sensible function of voiding a lien whenever a claim secured by the lien
itself had not been allowed", and it "ensures that the code's determination not to allow the
underlying claim against the debtor personally is given full effect by preventing its assertion
against the debtor's property/' Appellant's full release in Bankruptcy, is clearly separate from the
obligation Ms. Summerby testified was/and is solely her own, and now wrongfully pursued by
Appellees against Appellant's home, years after his Federal discharge.

2) What apparent conflict with another Decision of the Court was not
addressed in the opinion?
The conflict of the EDC's determination that Mr. Deck lacked Standing, versus the NCCA's
determination that: "Mr. Deck clearly has Standing to sue as a Mortgager". Appellant's home is the
largest purchase of his life, as it is for most Americans, and will clearly cause irreparable harm
without the proper determinations of the Federal Court to clarify all the issues plead in Appellant's
Original Opening and Appellate Briefs. Appellant's most basic right here is that he does have
standing to proceed in protecting his home, estate, and the equity of his investment.
The panel's decision focused only on procedural issues and was silent in regards to his rights as a
homeowner or an American citizen fighting to be heard on the merits to save his primary residence
from an unlawful Foreclosure. Among other things, the mortgage was transferred during the
Federal Stay of his Bankruptcy Ch. 7, (months after Appellee's Motion to lift the stay had been
3

(t>
Case: 19-16370, 02/11/2021, ID: 12001198, DktEntry: 21-1, Page 5 of 7

withdrawn), and collection from another signer of the Note is their proper remedy of law, rather
than pursuing the intentional harm and finality of Foreclosure of Appellant's sole and separate
primary residence.

CONCLUSION
Appellant pleads for the 9th Circuit to rehear this appeal, and re-weigh Appellant's right to be heard
over the procedural formalities of lesser significance. It would be catastrophic for any party to be
robbed of such an investment of life and finances in the face of earnest and sincere attempts to
properly procure legal protection in the complex pursuit of that resolve. The judicial system was
not designed for pro se litigants, but trained lawyers to present the proper details to the court in a
manner the court can decipher the most prudent conclusion of neutrality. However, this pro se
Appellant has exhausted all resources to obtain representation to that end (as the court is aware),
and prays the rule of law will be blind to Appellant's financial lack to secure professional
representation, and his struggle to comply with nuances he does not fully comprehend.
This case is generally relevant to the public at large as well, and epitomizes the foundational rules
of our society and the determination of equal justice under the law, which Appellant earnestly
presents to this court:

Appellant pleads for this panel to re-evaluate the four (4) unaddressed issues, specifically
introduced for the preservation of his rights and property.
1) Determine if the EDC Violated the Reverse and Remand Decision of the NINTH Circuit.
2) Determine if the Dismissal is defective.
3) Determine Appellant's right to be heard on the Original pleadings.
5) Request for leave of court to name the Does.
Along with the accompanying APPELLANT'S INFORMAL EMERGENCY MOTION FOR INJUNCTIVE
RELIEF, noting the rescheduled sale date of Marchl, 2021 is less than 21 days away.
Respectfully Submitted,

February 11, 2021
.Vernon.Deck^=.Appellant,-jn pro per-

4

ot

y)

(b or a)
Case: 19-16370, 02/11/2021, ID: 12001198, DktEntry: 21-1, Page 6 of 7

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
Form 25; Certificate of Service for Paper Filing

9th Cir. Case Number(s)
Case Name

19" 16370

Deck v. Wells Fargo Bank. NA.. et al

1 certify that I served on the person(s) listed below, either by mail or hand delivery,
a copy of the Applicant’s Informal Petition for Panel Rehearing, per FRAP Rule 40 and any
attachments.

(Me of document you are fitingjsuch as Opening Brief, Motion for

Signature

etc.)

Date . February i 1.2021

Name
Neil Cooper - Representing:'
J
Wells Fargo* Ocwen, Power
Default'Services .......... ~
William A- Fugleman - Atty for: ;
: U.S, Bank Trust National Assoc. ■
- as Trustee-Lodge Series III frost

Address

Date Served

Houser & Allyson, APC
9970 Research Drive, Irvine, CA 92618

02/11/2021

SN Servicing Corporation
.1.3702 Coursey BlvcI.. Bid. RBatton Rouge, LA
70817

02/11/2021

‘

I

Mail this form to the court at:
Clerks US, Court of Appeals for the Ninth Circuit, P:0. Box 193939, San Francisco, CA 9411.9-3939

Feedback or questions about t\usfpi m? £mail us at formsdlwaO. liscourtx’t/bv

Form 25

.

■Rev. .12/01/18

((ory)
Case: 19-16370, 02/11/2021, ID: 12001198, DktEntry: 21-1, Page 7 of 7

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
Form 8. Certificate of Compliance for Briefs
Instructionsfor this form: htlp://www. ca.9. uscourts. eov/forms/form OSinstmctions.pdi'

9th Cir. Case Number(s)

19-16370

I am the attorney or self-represented party.
This brief contains

1,530

words, excluding the items exempted

by Fed. R. App. P. 32(f). The brief s type size and typeface comply with Fed. R.
App. P. 32(a)(5) and (6)
I certify that this brief (select only one):
(• complies with the word limit of Cir. R. 32-1,
O is a cross-appeal brief and complies with the word limit of Cir. R. 28.1-1.
O

is an amicus brief and complies with the word limit of Fed. R. App. P.
29(a)(5), Cir. R. 29-2(c)(2), or Cir. R. 29-2(c)(3).

O is for a death penalty case and complies with the word limit of Cir. R. 32-4.
0

complies with the longer length limit permitted by Cir. R. 32-2(b) because
(select only one):
O it is a joint brief submitted by separately represented parties;
C a party or parties are filing a single brief in response to multiple briefs; or
O a party or parties are filing a single brief in response to a longer joint brief.

O complies with the length limit designated by court order dated
O is accompanied by a motion to file a longer brief pursuant to Cir. R. 32-2(a).

Signature
Date
.(usp/lsl{tfp&drnsmt\2-tosigneleptr0nicalty=fUed:-documents)

February 11,2021

Feedback of questions about thisform? Email us at fomsGbca9.uscourts.<rnv

Form 8

Rev. 12/01/2018

(» or y)
Case: 19-16370, 02/11/2021, ID: 12001198, DktEntry: 21-2, Page 1 of 2

FILED

NOT FOR PUBLICATION

JAN 28 2021

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
VERNON DECK,

MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

No. 19-16370

Plaintiff-Appellant,

D.C. No. 2:17-cv-00234-MCE-KJN

v.

MEMORANDUM*
WELLS FARGO BANK, N.A., National
Association, as Trustee for Option One
Mortgage Loan Trust 2003-1, Asset-Backed
Certificates, Series 2003-1; et al.,
Defendants-Appellees.
Appeal from the United States District Court
for the Eastern District of California
Morrison C. England, Jr., District Judge, Presiding
Submitted January 20, 2021**
Before:

McKEOWN, CALLAHAN, and BRESS, Circuit Judges.

Vernon Deck appeals pro se from the district court’s judgment dismissing
his action alleging federal and state law claims arising out of foreclosure
proceedings. We have jurisdiction under 28 U.S.C. § 1291. We review for an

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
**

The panel unanimously concludes this case is suitable for decision
-without-oral-argument—5,ee'FedrR7ApprPr3'4(a)(2).

(y

Case: 19-16370, 02/11/2021, ID: 12001198, DktEntry: 21-2, Page 2 of 2

abuse of discretion a district court’s dismissal of an action for failure to comply
with the court’s orders, Ferdik v. Bonzelet, 963 F.2d 1258, 1260 (9th Cir. 1992),
and we affirm.
The district court did not abuse its discretion by dismissing Deck’s action
after providing Deck with several opportunities to file an amended complaint that
complied with the district court’s orders, as well as this court’s memorandum
disposition in Case No. 17-16680, and several warnings that failure to file such a
complaint would result in dismissal with prejudice. See Fed. R. Civ. P. 41(b)
(failure to comply with a court order may be grounds for dismissal with prejudice
as sanction); Ferdik, 963 F.2d at 1260-63 (setting forth factors the district court
must consider in dismissing a case for failure to comply with a court order).
We reject as without merit Deck’s contention that the district court judge or
the magistrate judge were biased against him.
Deck’s request for appointment of counsel, set forth in the opening brief, is
denied.
All other pending motions or requests are denied as moot.
AFFIRMED.

2

19-16370

ot

yj

Query

Reports

Utilities

Help

Log Out

PRO_SE,CLOSED,REOPENED

U.S. District Court
Eastern District of California - Live System (Sacramento)
CIVIL DOCKET FOR CASE #: 2:17-cv-00234-MCE-KJN
(PS) Deck v. Wells Fargo Bank, N.A. et al
Assigned to: District Judge Morrison C. England, Jr
Referred to: Magistrate Judge Kendall J. Newman
Case in other court: U.S. Court of Appeals for the Ninth Circuit,
17-16680
USC A, 19-15172
USCA, 19-16370
Cause: 42:405 Fair Housing Act

Date Filed: 02/02/2017
Date Terminated: 06/12/2019
Jury Demand: Plaintiff
Nature of Suit: 290 Real Property: Other
Jurisdiction: Federal Question

Plaintiff
Vernon Deck

represented by Vernon Deck
1124 Hawthorne Loop
Roseville, CA 95678
805-598-3206
PROSE

V.
Defendant
Wells Fargo Bank, N.A.
National Association, as Trustee for Option
One Mortgage Loan Trust 2003-1, AssetBacked Certificates, Series 2003-1

represented by Gabriel Ozel
Troutman Sanders LLP
11682 El Camino Real
Suite 400
San Diego, CA 92130
858-509-6046
Email: gabriel.ozel@troutman.com
TERMINATED: 02/25/2019
LEAD ATTORNEY
Neil Joseph Cooper
Houser LLP
9970 Research Drive
Irvine, CA 92618
949-679-1111
Fax:949-679-1112
Email: ncooper@houser-law.com
LEAD ATTORNEY
A TTORNEY_T0. BE. NOTICED__

Defendant
Ocwen Loan Servicing, LLC
a Delaware Limited Liability Company

represented by Gabriel Ozel
(See above for address)

/
General Docket
United States Court of Appeals for the Ninth Circuit
Court of Appeals Docket #: 17-16680
Nature of Suit: 3290 Other Real Property Actions
Vernon Deck v. Wells Fargo Bank, N.A., et al
Appeal From: U.S. District Court for Eastern California, Sacramento
Fee Status: Paid

Docketed: 08/22/2017
Termed: 10/26/2018

Case Type Information:
1) civil
2) private
3) null
Originating Court Information:
District: 0972-2 : 2;17-cv-00234-MCE-KJN
Court Reporter: Jonathan A. Anderson
Trial Judge: Morrison C. England, Junior, Senior District Judge
Date Filed: 02/02/2017
Date Order/Judgment:
Date Order/Judgment EOD:
07/20/2017
07/20/2017

Date NOA Filed:
08/17/2017

Prior Cases:
None
Current Cases:
None

VERNON DECK
Plaintiff - Appellant,

Vernon Deck
Direct: 805-598-3206
[NTC Pro Se]
1124 Hawthorne Loop
Roseville, CA 95678

v.
WELLS FARGO BANK, N.A., National Association, as Trustee for
Option One Mortgage Loan Trust 2003-1, Asset-Backed
Certificates, Series 2003-1
Defendant - Appellee,

Gabriel Ozel
Direct: 858-882-3123
Email: gozel@nuvasive.com
[LD NTC Retained]
NuVasive, Inc.
7475 Lusk Boulevard
San Diego, CA 92121
Neil Cooper
Direct: 949-679-1111
Email: ncooper@houser-law.com
Fax: 949-679-1112
[COR NTC Retained]
Houser & Allison, APC
9970 Research Drive
Irvine, CA 92618

OCWEN LOAN SERVICING, LLC, a Delaware Limited Liability
Company
Defendant - Appellee,

Gabriel Ozel
Direct: 858-882-3123
[LD NTC Retained]
(see above)
Neil Cooper
Direct: 949-679-1111
[COR NTC Retained]
(see above)

POWER DEFAULT SERVICES, INC.
Defendant - Appellee,

Gabriel Ozel
Direct: 858-882-3123
[LD NTC Retained]
(see above)

Date Rec'd COA:
08/18/2017

General Docket
United States Court of Appeals for the Ninth Circuit
Court of Appeals Docket #: 19-15172
Nature of Suit; 3290 Other Real Property Actions
Vernon Deck v. Wells Fargo Bank, N.A., et al
Appeal From; U.S. District Court for Eastern California, Sacramento
Fee Status: Paid

Docketed: 01/30/2019
Termed: 02/25/2019

Case Type Information:

1) civil
2) private

3) null
Originating Court Information:
District: 0972-2 : 2:17-cv-00234-MCE-KJN
Court Reporter: Jonathan A. Anderson
Trial Judge: Kendall J. Newman, Magistrate Judge
Date Filed: 02/02/2017
Date Order/Judgment:
Date Order/Judgment EOD:

01/09/2019
Prior Cases:
17:16680

01/09/2019
Date Filed: 08/22/2017

Date NOA Filed:

01/29/2019

Date Disposed: 10/26/2018

Disposition: Reversed, Remanded - Memorandum

Current Cases:
None

VERNON DECK
Plaintiff - Appellant,

Vernon Deck
Direct: 805-598-3206
[NTC Pro Se]
1124 Hawthorne Loop
Roseville, CA 95678

v.
WELLS FARGO BANK, N.A., National Association, as Trustee for
Option One Mortgage Loan Trust 2003-1, Asset-Backed
Certificates, Series 2003-1
Defendant - Appellee,

Neil Cooper
Direct: 949-679-1111
Email: ncooper@hoiiser-law.com
Fax: 949-679-1112
[COR NTC Retained]
Houser & Allison, APC
9970 Research Drive
Irvine, CA 92618
Gabriel Ozel
Direct: 858-882-3123
Email: gozel@nuvasive.com
[COR NTC Retained]
NuVasive, Inc.
7475 Lusk Boulevard
San Diego, CA 92121

OCWEN LOAN SERVICING, LLC, a Delaware Limited Liability
Company
Defendant - Appellee,

Neil Cooper
Direct: 949-679-1111
[COR NTC Retained]
(see above)
Gabriel Ozel
Direct: 858-882-3123
[COR NTC Retained]
(see above)

POWER DEFAULT SERVICES, INC.
Defendant - Appellee,

Date Rec'd COA:
01/30/2019

Neil Cooper
Direct: 949-679-1111
[COR NTC Retained]
(see above)

General Docket
United States Court of Appeals for the Ninth Circuit
Court of Appeals Docket #: 19-16370
Nature of Suit: 3290 Other Real Property Actions
Vernon Deck v. Wells Fargo Bank, N.A., et al
Appeal From: U.S. District Court for Eastern California, Sacramento
Fee Status: Paid'

Docketed: 07/11/2019
Termed: 01728/2021

Case Type Information:
1) civil
2) private
3) null
Originating Court Information:
District: 0972-2 :2:17-cv-00234-MCE-KJN
Court Reporter: Jonathan A. Anderson
Trial Judge: Morrison C. England, Junior, Senior District Judge
Date Filed: 02/02/2017
Date Order/Judgment:
Date Order/Judgment EOD:

06/12/2019
Prior Cases:
IZij6680
19J 5172

06/12/2019
Date Filed: 08/22/2017
Date Filed: 01/30/2019

Date Disposed: 10/26/2018
Date Disposed: 02/25/2019

Date NOA Filed:

Date Rec'd COA:

07/10/2019

07/11/2019

Disposition: Reversed, Remanded - Memorandum
Disposition: Jurisdictional Defects - Judge Order

Current Cases:
None

VERNON DECK
Plaintiff - Appellant,

Vernon Deck
Direct: 805-598-3206
[NTC Pro Se]
1124 Hawthorne Loop
Roseville, CA 95678

v.
WELLS FARGO BANK, N.A., National Association, as Trustee for
Option One Mortgage Loan Trust 2003-1, Asset-Backed
Certificates, Series 2003-1
Defendant-Appellee,

Neil Cooper
Direct: 949-679-1111
Email: ncooper@houser-law.com
Fax:949-679-1112
[COR LD NTC Retained]
Houser & Allison, APC
9970 Research Drive
Irvine, CA 92618

OCWEN LOAN SERVICING, LLC, a Delaware Limited Liability
Company
Defendant - Appellee,

Neil Cooper
Direct: 949-679-1111
[COR LD NTC Retained]
(see above)

POWER DEFAULT SERVICES, INC.
Defendant - Appellee,

Neil Cooper
Direct: 949-679-1111
[COR LD NTC Retained]
(see above)

Case: 17-16680,10/26/2018, ID: 11061563, DktEntry: 27-1, Page 1 of 3

1
2
3
4
5

NOT FOR PUBLICATION

FILED

UNITED STATES COURT OF APPEALS

OCT 26 2018

FOR THE NINTH CIRCUIT

MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

6
VERNON DECK,

No.

Plaintiff-Appellant,

17-16680

D.C. No. 2:17-cv-00234-MCE-KJN

v.
MEMORANDUM*
WELLS FARGO BANK, N.A., National
Association, as Trustee for Option One
Mortgage Loan Trust 2003-1, Asset-Backed
Certificates, Series 2003-1; et al.,
Defendants-Appellees.
7

8
9
10
11
12
13
14
15
16

Appeal from the United States District Court
for the Eastern District of California
Morrison C. England, Jr., District Judge, Presiding
Submitted October 22, 2018**
Before:

SILVERMAN, GRABER, and GOULD, Circuit Judges.

Vernon Deck appeals pro se from the district court’s judgment dismissing

17

his action alleging violations of the Fair Debt Collection Practices Act, the

18

California Homeowner Bill of Rights Act (“HBOR”), and other state law claims

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
**

The panel unanimously concludes this case is suitable for decision
withoutoral-argument-iSee-Fed-R—App:T)—34(a)(2):

Case: 17-16680,10/26/2018, ID: 11061563, DktEntry: 27-1, Page 2 of 3

1

arising out of foreclosure proceedings. We have jurisdiction under 28 U.S.C.

2

§1291. We review de novo a dismissal for lack of statutory standing. Nat’l

3

Council ofLa Raza v. Cegavske, 800 F.3d 1032, 1039 (9th Cir. 2015). We review

4

for clear error the district court’s underlying factual determinations. Am.-Arab

5

Anti-Discrimination Comm. v. Thornburgh, 970 F.2d 501, 506 (9th Cir. 1991). We

6

reverse and remand.

7

The district court did not commit clear error in finding, following an

8

evidentiary hearing, that Deck did not sign the note relating to a refinance loan.

9

See id. at 506. The district court erred, however, in finding that Deck lacked

10

standing to sue for violations of HBOR because he was not a signatory to the note.

11

HBOR defined a “borrower” as “any natural person who is a mortgagor or trustor

12

and who is potentially eligible for any federal, state, or proprietary foreclosure

13

prevention alternative program offered by, or through, his or her mortgage

14

servicer.” Cal. Civ. Code § 2920.5 (repealed Jan. 1, 2018). Because it is

15

undisputed that Deck is a trustor under the deed of trust securing the refinance

16

loan, we reverse and remand for further proceedings on Deck’s claims under

17

HBOR only.

18

We do not consider defendants’ alternative arguments concerning the merits

19

of Deck’s claims under the HBOR, or the effect, if any, of the 2018 repeal of the

20

specific statutory violations alleged.

2

17-16680

Case: 17-16680,10/26/2018, ID: 11061563, DktEntry: 27-1, Page 3 of 3

1

We do not consider matters not raised before the district court, or matters not

2

specifically and distinctly raised and argued in the opening brief. See Padgett v.

3

Wright, 587 F.3d 983, 985 n.2 (9th Cir. 2009).

4

Deck’s request for judicial notice (Docket Entry No. 26) is granted.

5

REVERSED and REMANDED.

3

17-16680

Case 2:17-cv-00234-MCE-KJN Document 55 Filed 07/20/17 Page 1 of 2

1
2
3
4
5

6
7
8

UNITED STATES DISTRICT COURT

9

FOR THE EASTERN DISTRICT OF CALIFORNIA

10

11

VERNON DECK,

12
13
14
15

No. 2:17-cv-234-MCE-KJN PS
Plaintiff,

v.

ORDER

WELLS FARGO BANK, N.A., et al.,
Defendants.

16
17

On June 9, 2017, the magistrate judge filed findings and recommendations (ECF No. 49),

18

which were served on the parties and which contained notice that any objections to the findings

19

and recommendations were to be filed within fourteen (14) days. On June 23,2017; June 28,

20

2017; and June 30,2017, plaintiff filed objections to the findings and recommendations (ECF

21

Nos. 50, 51, 52), and on July 7, 2017, defendants filed a reply to plaintiffs objections (ECF No.

22

53), all of which have been considered by the Court.

23

This Court reviews de novo those portions of the proposed findings of fact to which an

24

objection has been made. 28 U.S.C. § 636(b)(1); McDonnell Douglas Com, v. Commodore

25

Business Machines, 656 F.2d 1309, 1313 (9th Cir. 1981); see also Dawson v. Marshall. 561 F.3d

26

930, 932 (9th Cir. 2009). As to any portion of the proposed findings of fact to which no objection

27

has been made, the Court assumes its correctness and decides the matter on the applicable law.

28

See Orand v. United States. 602 F.2d 207,208 (9th Cir. 1979). The magistrate judge’s
T

Case 2:17-cv-00234-MCE-KJN Document 55 Filed 07/20/17 Page 2 of 2

1

conclusions of law are reviewed de novo. See Britt v. Simi Valiev Unified School Dist.. 708 F.2d

2

452,454 (9th Cir. 1983).

3

The Court has reviewed the applicable legal standards and, good cause appearing,

4

concludes that it is appropriate to adopt the findings and recommendations in full. Accordingly,

5

IT IS HEREBY ORDERED that:

6

1. The findings and recommendations (ECF No. 49) are ADOPTED IN FULL.

7

2. The action is DISMISSED WITH PREJUDICE in its entirety.

8

3. Plaintiffs request to proceed in forma pauperis in this Court (ECF No. 2), as well as

9
10

his requests for court approval of a notice of pendency of action (ECF Nos. 19,20,21,37, and
38) are DENIED AS MOOT.

11

4. The Clerk of Court shall serve a courtesy copy of this order, and the underlying

12

findings and recommendations, on the United States Bankruptcy Court for the Eastern District of

13

California, referencing Case No. 16-bk-24854.

14

5. The Clerk of Court shall serve a courtesy copy of this order, and the underlying

15

findings and recommendations, on the Placer County Superior Court, referencing Case No.

16

SCV0037916.

17

6. The Clerk of Court shall close this case.

18

IT IS SO ORDERED.

19

Dated: July 20, 2017

20

MORRISON C. ENGLAND, JR
UNITED STATES DISTRKlTTf

21
22
23
24

25
26
27
28
2

Case 2:17-cv-00234-MCE-KJN Document 56 Filed 07/20/17 Page 1 of 1

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF CALIFORNIA

JUDGMENT IN A CIVIL CASE
VERNON DECK,
CASE NO: 2:17-CV-00234-MCE-KJN
v.
WELLS FARGO BANK, N.A., ET AL.,

XX — Decision by the Court. This action came to trial or hearing before the Court. The issues
have been tried or heard and a decision has been rendered.
IT IS ORDERED AND ADJUDGED
THAT JUDGMENT IS HEREBY ENTERED IN ACCORDANCE WITH THE
COURT'S ORDER FILED ON 7/20/17

Marianne Matherly
Clerk of Court
ENTERED: July 20,2017
hyr fa/ H. Kaminski

Deputy Clerk

Case 2:17-cv-00234-MCE-KJN Document 55 Filed 07/20/17 Page 1 of 2
1
2
3
4
5
6
7
8

UNITED STATES DISTRICT COURT

9

FOR THE EASTERN DISTRICT OF CALIFORNIA

10
11
12
13
14
15

No. 2:17-cv-234-MCE-KJN PS

VERNON DECK,
Plaintiff,

ORDER

v.
WELLS FARGO BANK, N.A., et al„
Defendants.

16
17

On June 9, 2017, the magistrate judge filed findings and recommendations (ECF No. 49),

18

which were served on the parties and which contained notice that any objections to the findings

19

and recommendations were to be filed within fourteen (14) days. On June 23, 2017; June 28,

20

2017; and June 30,2017, plaintiff filed objections to the findings and recommendations (ECF

21

Nos. 50, 51, 52), and on July 7, 2017, defendants filed a reply to plaintiffs objections (ECF No.

22

53), all of which have been considered by the Court.

23

This Court reviews de novo those portions of the proposed findings of fact to which an

24

objection has been made. 28 U.S.C. § 636(b)(1); McDonnell Douglas Corn, v. Commodore

25

Business Machines, 656F.2d 1309, 1313 (9th Cir. 19811: see also Dawson v. Marshall 561 F.3d

26

930, 932 (9th Cir. 2009). As to any portion of the proposed findings of fact to which no objection

27

has been made, the Court assumes its correctness and decides the matter on the applicable law.

28

See Orand v. United States. 602 F.2d 207,208 (9th Cir. 1979). The magistrate judge’s
1

Case 2:17-cv-00234-MCE-KJN Document 55 Filed 07/20/17 Page 2 of 2

1

conclusions of law are reviewed de novo. See Britt v. Simi Valiev Unified School Dist.. 708 F.2d

2

452,454 (9th Cir. 1983).

3

The Court has reviewed the applicable legal standards and, good cause appearing,

4

concludes that it is appropriate to adopt the findings and recommendations in full. Accordingly,

5

IT IS HEREBY ORDERED that:

6

1. The findings and recommendations (ECF No. 49) are ADOPTED IN FULL.

7

2. The action is DISMISSED WITH PREJUDICE in its entirety.

8

3. Plaintiffs request to proceed in forma pauperis in this Court (ECF No. 2), as well as

9
10

his requests for court approval of a notice of pendency of action (ECF Nos. 19,20,21,37, and
38) are DENIED AS MOOT.

11

4. The Clerk of Court shall serve a courtesy copy of this order, and the underlying

12

findings and recommendations, on the United States Bankruptcy Court for the Eastern District of

13

California, referencing Case No. 16-bk-24854.

14

5. The Clerk of Court shall serve a courtesy copy of this order, and the underlying

15

findings and recommendations, on the Placer County Superior Court, referencing Case No.

16

SCV0037916.

17

6. The Clerk of Court shall close this case.

18

IT IS SO ORDERED.

19

Dated: July 20, 2017

20

21
22
23
24

25
26
27
28

MORRISON C. ENGLAND, JR
UNITED STATES DISTRICTTI

Case 2:17-cv-00234-MCE-KJN Document 56 Filed 07/20/17 Page 1 of 1
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF CALIFORNIA

JUDGMENT IN A CIVIL CASE
VERNON DECK,
CASE NO: 2:17-CV-00234-MCE-KJN
V.

WELLS FARGO BANK, N.A., ET AL.,

XX — Decision by the Court This action came to trial or hearing before the Court. The issues
have been tried or heard and a decision has been rendered.
IT IS ORDERED AND ADJUDGED
THAT JUDGMENT IS HEREBY ENTERED IN ACCORDANCE WITH THE
COURT'S ORDER FILED ON 7/20/17

Marianne Matherly
Clerk of Court
ENTERED: July 20,2017
by /s/ H. Kaminski

Deputy Clerk

1 •'

\

■

\

■

•;-

’

\

:

1
2
3
4
5

FIL ED

\

Superior Court jf California
County of Placer

DEC 11 >015

«

Brio D, Houser (SBN130079)
Bethany R, Burrill (SBN 294088)
| HOUSER & ALLISON, AFC ''
A Professional Corporation
9970 Research Drive
I Irvine, California 92618
Telephone: (949)679-1111
Facsimile;
(949) 679-1112
E-Mail; bbunill@houser-la'w.oom

Jake Ch; itters
Executive Off! ;er & Qli^rk

By: S. Marlat to,

ipuiy

Asset-Backed Certificates, Series 2003-1 (erroneously sued as Wells Fargo Bank, RA,)^^1
8

9

SUPERIOR COURT OF THE STATE OF CALIFORNIA

10

COUNTY OF PLACER

11
12

VERNON RAY DECK,

Case No, SCV0035443

13

14
15

Plaintiff,

Commissioner Michael A, Jacques
declaration

OF.
HEATHER
SUMMERBY
IN SUPPORT OF
16
DEFENDANTS’
m
MOTION
FOR
OCWEN LOAN SERVICINO,. LLC, a
SUMMARY
JUDGMENT
OR,
IN
THF
17 Delaware limited liability company; POWER
ALTERNATIVE, FOR
SUMMARY
DEFAULT SERVICES, INC., a Delaware
ADJUDICATION
AND
MEMORANDUM
18 corporation; WELLS FARGO BANK, NJL, a
OF POiNTS AND AUTHORITIES IN
national association; and DOBS 1 throush 10. SUPPORT
THEREOF
t9 inclusive;
’
u----20

v.

Defendants.

[Notice of Motion and Motion for Summary
Judgment, Separate Statement of Undisputed
Facts and [Proposed] Older filed concurrently
herewith.]

21
22
23
24

25
26
27
28

1
DECLARATION OF HEATHER SUMMERBY IN SUPPORT OP DEFEN
DANTS' MOTION FOR
SUMMARYJTJDOMENT

■’i

/

i .1

V
/

/

declaration oe heather summerby

1
2

1, Heather Sumnierby, declare as follows;

3
4

5
6

1.

I m over the age of 18 years old. I have personal knowledge of the facts set forth

in this Declaration and If called as a witness could and would competently testify

us to those

foots.
.

2. ■

On or about November 2;2002,1 applied for arid obtained a $306,006 refin__
ance
^ loan ^ °Pti°n une Mortgage cJb'iporatlon (the “Loan1-). 1 was the only person that 8i$iH
8

the Adjustable Rate Note forthe Loan,

9

3.
The Loan was secured by the real property Iooated at 1124 Hawthrone Loop,
Roseville, California 95678 (the. “Property") through a Deed of Trust that I signed on*

10
11
12
. 13
14

15
16
17
18
ft
20

21
22

l

November 2,2002,
4.

I was and continue to be the only person liable under the Loan. I remain the sole

obligor and borrower on the Loan, and have not assigned any interests, rights and/or
obligations in the Loan to anyone, including my ex-husband, Mr. Vernon Deck.
5.

Since the Loan has heen in de&nlt, I have never submitted a loss mitigation

application to Ocwen Loan Servicing, LLC or any of the prior loan servicers and/or owne:
rs of
the Loan. 1 also have never attempted to discuss loss mitigation options for the Loan with
Ocwen Loan Servicing, LLC or any of foe. prior loan servicers and/or owners of the Lo
an
-beeauee-j-havo no intoroat In-foe^refletvia^e^opeffyHHmve
-no-intention of curing-feeLoan’s default, modifying the Loan, or paying off foe Loan.
I declare under penalty of perjury under the laws of foe State of California that the
foregoing is true and correct. Pda declaration was executed on December 3 .2015.

23
24

•25

Heather Summerby

26
27
28

2

;
1

PROOF OF SERVICE

2

STATE OF CALIFORNIA

)

4

COUNTY OF ORANGE .

)

5

Iam employed in the County of Orange, State of California. I am over the age of 18 and not
a party to the within action. My business address is 9970 Research Drive, Irvine, CA 92618
On December 10,2015,1 served the following document(s) described as follows:

3

6

)SS

7
8

FOR
AND

9
10

On the following interested parties in this action:

11

Vernon Ray Deck
1124 Hawthorne Loop
Roseville, CA 95678
Email: v.deck7@gmail.com
Plaintiff in pro per

12
13
14
15
16
17

listed above electronically by e-mail to the e-mail address listed above. I am readilv ^ ^

Ou,look's ^ ^

18

“ «• -pid7-

19
20
21

mailing with the processing of correspondence for overnight mail or overnight courier

0“ i CZS“

■■

s;- *••*-«•*«

® 'S'Z
°f Paj“ry’Under 416 kws of'StaM »f California that the
is true and correct.

v
26
27 '

'rif)
, Executed on December ^ 2015 at Irvine, California.

jKjc

e!/l'< ‘-2$A

: V...N

Ti

:.

*

.•
•;

i
V
•j

r

j

■n :
• l

t

:
:

•l

:
:
:

amcE.
ATTEST:
>

: WSTRUHCNT
COPY OF THE
ON FIE W THIS

MAY 1 2 2021

Superior Court Clerk,
County of Placer, State
mla.
of

-

When embossed and'signed, this is certified to be a true copy
of the records Of the Placer County Clerk-Recorder's Office.
ajkRonco, Clerk-Recorder
^VT&60utv Xtetsx__ APR 2 9 a21
•\^

n'<
• K V

l

V'

■

EXHIBIT H

EXHIBIT H

EXHIBIT H
HeatherSTmnnerby-s-20I-7-Fetieral-DeclarationM-CV-0078624

Case 2:17-cv-00234-MCE-KJN Document 9-10 Filed 02/16/17 Page 1 of 3
1
2
~
4
5
6
7

ERIC D. HOUSER (SBN 130079)
GABRIEL OZEl (SBN 269098)
HOUSER & ALLISON, APC
One Pacific Heights
9920 Pacific Heights Blvd, Suite 150
San Diego, California 92121
Telephone: (760) 603-9664
Facsimile: (562)256-1685
E-Mail: gozel@houser-law.com

Attorneys for Defendants, Ocwen Loan Servicing, LLC and Wells Fargo Bank, National
Association, as Trustee for Option One Mortgage Loan Trust 2003-1, Asset-Backed
8 | J Certificates, Series 2003-1, and Power Default Services, Inc.
9
10

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF CALIFORNIA - SACRAMENTO DIVISION

11 j j VERNON RAY DECK, an Individual,
12
13
14

Plaintiff
vs.

WELLS FARGO BANK, N.A., National
Association, as Trustee for Option One
16 Mortgage Loan Trust 2003-1, Asset
I Backed Certificates, Series 2003-1;
17 OCWEN LOAN SERVICING, LLC, a
Delaware limited liability company;
18
POWER DEFAULT SERVICES, INC., a
19 corporation; and all parties and all
persons or entitles with any claims to real
20 property located at 1124 Hawthorne Loop,
Roseville, California 95678 and Does 121 20, inclusively,
15

Case No.: 2:17-cv-00234-MCE-KJN
DECLARATION OF HEATHER
SUMMERBY IN SUPPORT OF
DEFENDANTS’ OPPOSITION TO
ORDER TO SHOW CAUSE RE:
PRELIMINARY INJUNCTION
Date: February 23, 2017
Time: 2:00 p.m.
Courtroom: 7

22
23

Defendants.

\

*

24
25
26

V

27
28

DECLARATION OF HEATHER SUMMERBY

<* J

Gase ?;17-cv*00234-MCE-KJN Document 9-10 Filed 02/16/17 Page 2 of 3

DECLARATION OF HEATHER SUMMRRBY

1
2

I, Heather Summerby, declare as follows:

.3

1.

I am over the ago of 18 years old. I have personal knowledge of the facts set forfli

4

in this Declaration and if called as a witness could and would competently' testify as to those

5

foots.

6

2.
On or about November 2,2002,1 applied for and obtained a $306,000 refinance
7 Jlloan Ifoni'dpiioii bne Mortgage Corporation (the ‘loan"). rVvu’Qw only person that si'gnetT
8

9

the Adjustable Rate Note for the Loan.
3.

The Loan was secured by the ml property located at 1124 Hawtlirone Loop,

IQ Roseville, California 95678 (the “Property”) through a Deed of Trust that I signed on
U November 2,2002,
12
4.
I was and continue to be the only person liable under the Loan. I remain the sole
13 obligor and borrower on the Loon, and have not assigned any interests, rights and/or
14 obligations in foe Loan to anyone, including my cx-husband, Mr. Vernon Deck.
15
5.
Since the Loan has been in default, I have never submitted a loss mitigation
16 application to Ocwen Loan Servicing, LLC or any of foe prior loan servicers and/or owners of
17 the Loan. I also have never attempted to discuss loss mitigation options for the Loan with
18 Ocwen Loan Servicing, LLC or any of the prior loan servicers and/or owners of the Loan
-*$- -beeattge-l haw-ne mtofeot in
20 Loan’s default, modifying the Loan, or paying off the Loan.
L declare under penalty of perjury under foe laws of foe State of California that the
21
22 forgoing is true and correct This declaration was executed on December 3 2015,
23

24
25
26
27
28

z
Heather Summerby,

)ase 2:17-cv-00234-MCE-KJN Document 9-10 Filed 02/16/17 Page 3 of 3

1

PROOF OF SERVICE

2
3
4
5
6
.

STATE OF CALIFORNIA

)

COUNTY OF LOS ANGELES

) ss
)

I am employed in the County of Los Angeles, State of California. I am over the age of 18
and not a party to the within action. My business address is 3780 Kilroy Airport Way, Suite 130,
Long Beach, California 90806.

7

On February 16,2017.1 served the following document(s):

8

DECLARATION OF HEATHER SUMMERBY IN SUPPORT OF
DEFENDANTS’ OPPOSITION TO ORDER TO SHOW CAUSE RE:
PRELIMINARY INJUNCTION

9
10

On the following interested parties in this action described as follows:
11
12
13

Vernon Ray Deck
1124 Hawthorne Loop
Roseville, CA 95678

14
[X]
15
16
17
18
19
20
21
22

VIA OVERNIGHT MAIL/COURIER: CCP §§ 1013(c), 2015.5: By placing a true
copy thereof enclosed in a sealed envelope, addressed as above, and placing each foi
collection by overnight mail service or overnight courier service. I am readily familiar
with my firm's business practice of collection and processing of correspondence for
mailing with die processing of correspondence for overnight mail or overnight courier
service, and any correspondence placed for collection for overnight delivery would in the
ordinary course of business, be delivered to an authorized courier or delivery authorized
by the overnight mail carrier to receive documents, with delivery fees paid or provided
for, that same day for delivery on the following business day.

I declare under penalty of peijury, under the laws of the United States of America, that
the foregoing is true and correct. Executed on February 16,2017, in Long Beach, California.
Executed on February 16.2017. in Long Beach, California.

23
24
25
26
-2728
PROOF OF SERVICE
1

Additional material
from this filing is
available in the
Clerk's Office.

